                                                                E-IN-MMS-0102-2002-A


             United States Department of the Interior

                            Office of Inspector General
                                  Washington, D.C. 20240



                                                                           April 21, 2003

Memorandum

To:        Director, Minerals Management Service


From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Management Issues Identified During the Audit of the Mineral Management
           Service’s Fiscal Year 2002 Financial Statements (No. 2003-I-0044)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Minerals Management Service’s (MMS) financial statements as of September
30, 2002 and for the year then ended. In conjunction with its audit, KPMG noted certain
matters involving internal control and other operational matters that should be brought to
management’s attention. These matters, which are discussed in the attached letter, are in
addition to those reported in KPMG’s audit report on MMS’s financial statements
(Report No. 2003-I-0030) and do not constitute reportable conditions as defined by the
American Institute of Certified Public Accountants.

        The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation, therefore your response should
be provided directly to that office. If you have any questions regarding KPMG’s letter,
please contact me at (202) 208-5512.

       Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.



Attachment

cc:     Assistant Secretary for Land and Minerals Management
        Assistant Secretary for Policy, Management and Budget
        Chief Financial Officer, Minerals Management Service
        Director, Office of Financial Management
        Comptroller, Minerals Management Service
        Chief, Financial Management Branch, Minerals Management Service
        Audit Liaison Officer, Land and Minerals Management
        Audit Liaison Officer, Minerals Management Service
        Focus Leader for Management Control and Audit Followup,
        Office of Financial Management
ATTACHMENT
       -


Page       2




               The detailed scan results (raw data) containing vulnerabl~ IP addresses were provided to MMS
               network management.

               Criteri~


               0MB Circular A-130, "Security of Federal Automated Information Resources," states that
               agencies are required to establish controls to assure adequate security of all information
               processed, transmitted, or stored in Federal automated information systems. In every general
               support system, a number of technical, operational, and management controls are used to prevent
               and detect harm. Such controls include individual accountability, "least privilege," and
               separation of duties. Individual accountability consists of holding someone responsible for
               his/her actions. In a general support system, accountability is normally accomplished by
               identifying and authenticating users of the system and subsequently tracing actions on the system
               to the user who initiated them. Least privilege is the practice of restricting a user's access(to data
               files, to processing capability, or to peripherals) or type of access (read, write, execute, delete) to
               the minimum necessary to perform his job. Appendix ill also directs that Federal agencies to
               follow the guidance of the National Institute of Standards and Technology (NIST).

               ~
               Vulnerability of the systems existed as a result of these contributing factors:
               .Inadequate     firewall policy for the New Orleans site and contractor-managed router; and
               .Inability    to apply software patches or disable unnecessary web server extensions in a
                   reasonable amount of time.

               ~

               The vulnerabilities increase the risk that critical MMS systems, including those containing
               business information, could be compromised or disabled by malicious or unauthorized use.
               Excessive network services available through open ports and unpatched system software provide
               unauthorized users with the potential for gaining access to the MMS internal network and then
               proceeding to compromise system and network availability, confidentiality and integrity .

               Recommendation


               We recommend MMS management take the necessary steps to improve network security, which
               should include, at a minimum:
               a). Immediately closing the open ports which present a critical risk;
               b). Conducting a detailed review of the scan results which have been provided by KPMG in
                   order to determine if other open ports present vulnerabilities for the MMS Network;
               c). Disabling or replacing vulnerable network services, including web server extensions. Use
                   protocol filtering to permit only authorized machines to use network services (at router,
                   switch, or firewall); and
               d). Applying the latest vendor security patches for the Internet Information Server (US) web
                   server.
   -


Page 3




       2.   Improve     Controls   Related   to Prompt   Pay


            Condition


            Not all invoices for payment were paid within timelines prescribed within the Prompt Payment
            Act. During our testing we noted significant improvements in the payment process and ensuring
            the timely submission ofpayment. However, we noted that for 2 of the 247 sample items tested,
            expenses were not promptly paid within the time period allotted, as specified by the Prompt
            Payment Act (5CFR Part 1315) and the Federal Acquisition Regulation, Paragraph 52.232-25,
            and interest payments to the vendor were not made for these items. The total value of these items
            was $118,796 and the associated unpaid interest was approximately $670. When you project this
            error to the remaining population, our estimate of the unpaid interest in the remaining population
            is approximately $14,306.

            Criteria


            The Prompt Payment Act (5 CFR Part 1315) requires Federal agencies to pay expenses on a
            timely basis, within 30 days of the latter of receipt of an invoice or delivery of goods/services. In
            the event expenses are not paid within the allotted time period, the Prompt Payment Act further
            states that interest penalties are to be assessedagainst the expense and due to vendors along with
            payment.

            ~

            The approving official did not promptly send approved invoices for payment to the Financial
            Management Branch. Timely receipt of the approved invoice by FMB is imperative for
            complying with the regulations set forth in the Prompt Payment Act and the Federal Acquisition
            Regulation. The Financial Management Branch did not pay interest on the two delinquent
            payments noted in the condition due to management oversight.

            ~

            Failure to make timely payments could, if determined to have a direct and material impact, result
            in a non-compliance with laws and regulations.

            Recommendation

            We recommend that management ensure that the Procurement Division promptly submits
            approved vendor invoices to the Financial Management Branch to ensure payments are made in
            accordance with the Prompt Payment Act and Federal Acquisition Regulation. fu the event
            invoices are not submitted in a timely fashion, the Financial Management Branch should
            calculate the interest expense incurred for non-compliance with the Prompt Pay Act and submit
            interest payments to vendors accordingly and promptly.
       -


Page       4




Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and therefore may not bring to light all weaknesses in policies or procedures that may exist. We aim,
however, to use our knowledge ofMMS gained during our audit to make comments and suggestions that
we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

This report is intended solely for the information and use of Department of the Interior's management,
Department of the Interior's Office of the Inspector General, Office of Management and Budget and the
U.S. Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


Very truly yours,



                    LL-P
